1a
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
HEATHER MARLOWE,
Plaintiff-Appellant,
v.
CITY AND COUNTY OF
SAN FRANCISCO, a
governmental entity; et al.,

No. 17-15205
D.C. No.
3:16-cv-00076-MMC
MEMORANDUM*
(Filed Feb. 20, 2019)

Defendants-Appellees.
Appeal from the United States District Court
for the Northern District of California
Maxine M. Chesney, District Judge, Presiding
Submitted February 15, 2019**
San Francisco, California
Before: McKEOWN and W. FLETCHER, Circuit Judges,
and EZRA,*** District Judge.
Heather Marlowe appeals the district court’s dismissal, as time-barred and for failure to state a claim,
of her claims under 42 U.S.C. § 1983. Because the parties are familiar with the facts, we do not recite them
* This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3.
** The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).
*** The Honorable David A. Ezra, United States District
Judge for the District of Hawaii, sitting by designation.

2a
here. We have jurisdiction under 28 U.S.C. § 1291. We
affirm.
We need not decide whether Marlowe’s Monell
claim against the City and County of San Francisco accrued upon incurring her injury or when she knew, or
reasonably should have known, that an official custom
or policy caused her injury, because, in any event, her
claim had accrued by October 2012. By that time, she
had experienced a delay of more than two years in testing her rape kit (the injury), and the San Francisco Police Department had informed her that the delay and
backlog resulted from prioritizing “more important
crimes” (the custom or policy). Marlowe’s Monell claim
had accrued following this injury, value judgment, and
prioritization. Applying California’s two-year statute
of limitations, the Monell claim was time-barred when
Marlowe filed suit in January 2016. Lukovsky v. City &
Cty. of S.F., 535 F.3d 1044, 1048 (9th Cir. 2008) (claims
under § 1983 adopt the forum state’s statute of limitations for personal injury actions); Cal. Civ. Proc. Code
§ 335.1 (two-year statute of limitations).
Equitable estoppel does not bar San Francisco
from relying on the statute of limitations. For equitable
estoppel to apply, a plaintiff must actually and reasonably rely on a defendant’s misleading conduct. Lantzy
v. Centex Homes, 73 P.3d 517, 533–34 (Cal. 2003), as
modified (Aug. 27, 2003); see Butler v. Nat’l Cmty. Renaissance of Cal., 766 F.3d 1191, 1198 (9th Cir. 2014)
(claims under § 1983 borrow the forum state’s equitable defenses to the statute of limitations). Marlowe
does not allege that she relied, in delaying filing suit,

3a
on the San Francisco Police Department’s May 2013
statement that all rape kits had been tested. Nor
would any such reliance have been reasonable, because
the status of rape kit testing in May 2013 was irrelevant to Marlowe’s claim that San Francisco’s policy or
custom violated her constitutional rights between
2010 and 2012.
Even if timely, Marlowe’s other claims fail on the
merits. Apart from several conclusory allegations, which
we do not consider, Ashcroft v. Iqbal, 556 U.S. 662, 679
(2009), the second amended complaint fails to allege
facts that plausibly suggest a failure to train caused
the alleged equal protection violation. The allegations
against Police Commission President Suzy Loftus, Police Chief Greg Suhr, and Deputy Police Chief Mikail
Ali, are similarly conclusory, and they do not plausibly
suggest that these officials violated the Constitution
through their “own individual actions.” Id. at 676; see
Starr v. Baca, 652 F.3d 1202, 1205–07 (9th Cir. 2011)
(distinguishing between supervisory liability and vicarious liability).
AFFIRMED.

4a
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF CALIFORNIA
HEATHER MARLOWE,
Plaintiff,
v.
CITY AND COUNTY OF
SAN FRANCISCO, et al.,
Defendants.

Case No.
16-cv-00076-MMC
ORDER GRANTING
DEFENDANTS’
MOTION TO DISMISS;
VACATING HEARING
Re: Dkt. No. 41
(Filed Jan. 10, 2017)

Before the Court is the “Motion to Dismiss Plaintiff ’s Second Amended Complaint,” filed November 23,
2016, by defendants City and County of San Francisco
(“the City”), Suzy Loftus (“Loftus”), Greg Suhr (“Suhr”),
Mikail Ali (“Ali”) and Joe Cordes (“Cordes”).
Plaintiff Heather Marlowe (“Marlowe”) has filed
opposition, to which defendants have replied. Having
read and considered the papers filed in support and
in opposition to the motion, the Court deems the matter appropriate for determination on the parties’ respective written submissions, VACATES the hearing
scheduled for January 13, 2017, and rules as follows.
In the SAC, Marlowe alleges that, in 2010, she reported a “sexual assault to the San Francisco Police
Department,” which agency then “failed to investigate
diligently the allegations made by [Marlowe], including failing to test [Marlowe’s] rape kit for over two
years.” (See SAC ¶ 1.) Based thereon, Marlowe alleges

5a
defendants deprived her of equal protection in violation of 42 U.S.C. § 1983. (See SAC ¶¶ 1, 55-56.)
Marlow alleged the same equal protection claim in
her prior complaint, the First Amended Complaint
(“FAC”), which the Court dismissed by order filed September 27, 2016. Specifically, the Court found Marlowe,
in the FAC, had “fail[ed] to allege any facts to . . . support a determination that similarly situated persons
were treated more favorably than Marlowe” (see Order,
filed September 27, 2016, at 2:1-14), and, additionally,
that, as pleaded, the claim was barred by the applicable two-year statute of limitations (see id. at 2:15 - 3:6).
The Court afforded Marlowe leave to amend to allege,
if she could, facts to cure the two deficiencies identified
in said order.
In seeking dismissal of the SAC, defendants argue
Marlowe has failed to cure either deficiency. As discussed below, the Court agrees.
First, the SAC includes no facts to support Marlowe’s conclusory allegations that defendants treat
persons who report sexual assaults less favorably than
persons who are similarly situated. As with the FAC,
the SAC alleges defendants’ investigation of Marlowe’s
report was inadequate (see, e.g., SAC ¶¶ 20-21 (alleging defendant Cordes “demanded that Marlowe enter
the home [where Marlowe believed she had been
raped] while he distracted the owner to see if Marlowe
could identify that home as the scene of her rape,”
which plan of action “increased the risk of harm to
Marlowe”)), and that defendants have inadequately

6a
investigated reports of sexual assault made by other
persons (see, e.g., SAC ¶ 1 (alleging defendants “failed
to investigate the rape kits of thousands of other victims”)). Marlowe fails, however, to allege any facts to
support a finding that persons who reported other
types of crimes were treated more favorably. In the absence of such facts, Marlowe fails to state an equal protection claim. See Freeman v. City of Santa Ana, 68
F.3d 1180, 1187 (9th Cir. 1995) (holding equal protection claim requires showing of “unequal treatment of
people in similar circumstances”).1
Second, the SAC includes no facts to support a
finding that an exception to the two-year statute of
limitations exists.2 See Udom v. Fonseca, 846 F.2d
1

Marlowe’s reliance on Evans v. McKay, 869 F.2d 1341 (9th
Cir. 1989), to support her claim against the City is unavailing.
Although Evans did hold that, at the pleading stage, a claim for
municipal liability can be “based on nothing more than a bare allegation that the individual officers’ conduct conformed to official
policy, conduct or practice,” see id. at 1349, the Ninth Circuit subsequently has held that the plaintiff must identify in the complaint the “specific nature” of the challenged custom or policy, see
AE v. County of Tulare, 666 F.3d 631, 637 (9th Cir. 2012). Moreover, where, as here, a plaintiff fails to adequately allege a constitutional deprivation, the plaintiff necessarily fails to state a
cognizable claim against a municipality. See Quintanilla v. City
of Downey, 84 F.3d 353, 355 (9th Cir. 1996) (holding plaintiff may
not recover against municipality under § 1983 unless his/her “federal rights have been violated”).
2
Marlowe filed her initial complaint on January 7, 2016,
and, consequently, in the absence of an exception to the statute of
limitations, may not proceed on claims that accrued more than
two years before said date. See Canatella v. Van De Kamp, 486
F.3d 1128, 1132 (9th Cir. 2007) (holding California’s two-year
statute of limitations for personal injury actions applies to § 1983

7a
1236, 1238 (9th Cir. 1988) (holding “[i]n order to invoke
the benefit of [an exception to the statute of limitations], the plaintiff must allege facts that, if believed,
would provide a basis for [the exception]”). Marlowe
has added allegations that the “SFPD,” in February
2014, announced it had “several thousand untested
rape kits” (see SAC ¶ 44) and “would only commit to
testing 753 of [them]” (see SAC ¶ 66), which statements Marlowe further alleges were contrary to a
statement “[C]ity representatives” allegedly made in
May 2013 that “there was no backlog of untested rape
kits” (see SAC ¶ 41). Said allegations are, contrary to
Marlowe’s argument, insufficient as a matter of law to
support a claim of equitable estoppel, as the asserted
false statement – that, in May 2013, the City had no
backlog of untested rape kits – has no “bearing on the
necessity of bringing a timely suit.” See Lantzy v. Centex Homes, 31 Cal. 4th 363, 384 n.18 (2003) (holding
equitable estoppel exception to statute of limitations
must be based on “a misrepresentation bearing on the
necessity of bringing a timely suit”). Specifically, any
falsity in the May 2013 statement did not pertain to
the testing of Marlowe’s kit, which she alleges had
been tested the previous year. (See SAC ¶ 38.) To the
extent the SAC can be understood to allege that Marlowe, having heard the May 2013 statement, relied
thereon by not filing a suit challenging any failure by
defendants to test other persons’ rape kits, any such
claims). Marlowe’s claim against Cordes accrued in 2010 (see Order, filed September 27, 2016, at 2:15-22), and claims against
Loftus, Suhr, Ali and the City accrued in October 2012 (see id. at
2:25 - 3:6).

8a
reliance was, as a matter of law, not reasonable; Marlowe would lack standing to bring such a claim, as she
has not alleged she incurred an “injury in fact” when
defendants delayed testing, or did not test, those other
kits. See Lujan v. Defenders of Wildlife, 504 U.S. 555,
560 (1992) (setting forth “elements” of “standing”);
Lantzy, 31 Cal. 4th at 385 (holding plaintiff, to establish equitable estoppel based on “defendants’ conduct,”
must show decision to “forbear suing” was “reasonable”).
Accordingly, Marlowe’s equal protection claim, asserted in the SAC as the First Cause of Action, is subject to dismissal without further leave to amend.
Lastly, the Court addresses a state law claim
asserted in the SAC, specifically, the Third Cause of
Action,3 which asserts a claim for injunctive relief
under Article 1, § 7, of the California Constitution. The
Court’s jurisdiction over Marlowe’s state law claim
is supplemental in nature. See 28 U.S.C. § 1367(a).
Where, as here, the district court will “dismiss all
claims over which it has original jurisdiction,” the district court may decline to exercise supplemental jurisdiction over the remaining state law claims. See 28
U.S.C. § 1367(c)(3). In this instance, as the case remains at the pleading stage, and there are no apparent
considerations weighing in favor of retaining jurisdiction over the state law claim, the Court finds it

3

The SAC does not have a Second Cause of Action.

9a
appropriate to decline to exercise supplemental jurisdiction over the Third Cause of Action.4
CONCLUSION
For the reasons stated above, defendants’ motion
to dismiss is hereby GRANTED, as follows:
1. The First Cause of Action is hereby DISMISSED, without further leave to amend.
2. The Third Cause of Action is hereby DISMISSED, without prejudice to Marlowe’s refiling said
claim in state court.
IT IS SO ORDERED.
Dated: January 10, 2017 /s/ Maxine M. Chesney
MAXINE M. CHESNEY
United States District Judge

4

In light of such ruling, the Court does not address herein
defendants’ argument that the Court, in its prior order granting
leave to amend, did not authorize the filing of such a claim.

10a
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
HEATHER MARLOWE,
Plaintiff,

Case No.
16-cv-00076-MMC
JUDGMENT IN A
CIVIL CASE

v.
CITY AND COUNTY OF
SAN FRANCISCO, et al.,
Defendants.

Re: Dkt. No. 41
(Filed Jan. 10, 2017)

( ) Jury Verdict. This action came before the
Court for a trial by jury. The issues have been tried and
the jury has rendered its verdict.
(X) Decision by Court. This action came to
trial or hearing before the Court. The issues have been
tried or heard and a decision has been rendered.
IT IS SO ORDERED AND ADJUDGED
The First Cause of Action is hereby DISMISSED, without further leave to amend.
The Third Cause of Action is hereby DISMISSED, without prejudice to Marlowe’s refiling said claim in state court.

11a
Dated: 1/10/2017
Susan Y. Soong, Clerk
/s/ Tracy Geiger
Tracy Giger
Deputy Clerk

